                       MEMORANDUM REPORT 01-IT-M-084
                  Strong Management Support Needed to Ensure the
                            Broadcasting Board of Governors
             Complies with the Government Information Security Reform Act
                                    September 2001


        In response to the Government Information Security Reform Act (GISRA), Public Law
106-398, the Office of Inspector General (OIG) performed an independent evaluation of the
information security program of the Broadcasting Board of Governors (BBG). Specific
objectives of our review were to identify the BBG’s policies and procedures for securing
information on its information systems and to determine whether the BBG is effectively
implementing requirements of the Government Information Security Reform Act.

RESULTS IN BRIEF

         When OIG began its review in February 2001 BBG did not have a documented, agency-
wide information security program as required by GISRA and had not documented security level
requirements for its systems. Since then, the BBG has appointed a Chief Information Officer
(CIO) and has made some progress toward establishing an information security program. For
example, in July 2001, the CIO issued a draft paper outlining a framework for the BBG
Information Security Program, including a discussion of roles and responsibilities, training
requirements, and the agency’s enterprise architecture. OIG is encouraged by these steps to
comply with GISRA and recommends that the BBG complete work on developing its
information security program by the end of October 2001 and include a discussion of these
efforts in its remediation plan, which is due to the Office of Management and Budget on October
31, 2001.

BACKGROUND

        The U.S. International Broadcasting Act of 1994 (Public Law 103-236), created the BBG
as a self-governing element within the former United States Information Agency, which
provided some administrative, technical, and management support to BBG. The Foreign Affairs
Reform and Restructuring Act of 1998 (Public Law 105-277) granted the BBG independence
from the United States Information Agency on October 1, 1999. BBG is responsible for
overseeing all U.S. Government-funded, civilian broadcasting, including the operations of the
International Broadcasting Bureau (IBB), which includes the broadcasting entities of Voice of
America, Worldnet Television and Film Service, and Office of Cuba Broadcasting. BBG also
oversees two grantee organizations—Radio Free Europe/Radio Liberty and Radio Free Asia.

       Information security is an important consideration for any organization that depends on
information systems and computer networks to carry out its mission or business. Computer-
supported government operations, including those at the BBG, are at increasing risk. The
dramatic expansion in computer interconnectivity and the rapid increase in the use of the Internet
are changing the way our government, the nation, and much of the world communicate and
conduct business. However, without proper safeguards, these developments pose enormous risks
that make it easier for individuals and groups with malicious intent to intrude into inadequately
protected systems and use such access to obtain sensitive information, commit fraud, disrupt
operations, or launch attacks against other computer networks and systems. Further, the number
of people with computer skills is increasing, and intrusion techniques and tools are readily
available and relatively easy to use. The rash of cyber attacks launched in February 2000 against
major U.S. firms and the global disruption caused by the “ILOVE YOU” virus in May 2000
illustrate the risks associated with this new electronic age.

        Faced with growing concerns about information security risks to the Federal
Government, the Congress passed and the President signed GISRA into law in late 2000.
GISRA provides: (1) a comprehensive framework for establishing and ensuring the
effectiveness of controls over information resources that support Federal operations and assets;
and, (2) a mechanism for improved oversight of Federal agency information security programs.
Specifically, GISRA requires each agency to:

   •   identify, use, and share best security practices;
   •   develop an agency-wide information security plan;
   •   incorporate information security principles and practices throughout the life cycles of the
       agency’s information systems; and
   •   ensure that the information security plan is practiced throughout all life cycles of the
       agency’s information systems.

        In addition, GISRA assigns the agency’s CIO authority to administer key functions under
the statute, including:

   •   designating a senior agency information security official who shall report to the CIO;
   •   developing and maintaining an agency-wide information security program;
   •   ensuring that the agency effectively implements and maintains information security
       policies, procedures, and control techniques; and
   •   training and overseeing personnel with significant responsibilities for information
       security.

        Finally, in addition to a number of other provisions, GISRA requires that each agency
have an annual independent evaluation performed of its information security program and
practices. The Inspector General or another independent evaluator performing these evaluations
may use any audit, evaluation, or report relating to the effectiveness of the agency’s information
security program. The agency is required to submit the independent evaluation, along with its
own assessment, to the Office of Management and Budget as part of its annual budget request.

PURPOSE, SCOPE, AND METHODOLOGY

         Section 3535 of GISRA directs each agency to have conducted an independent evaluation
of its information security program and practices. In response to GISRA, the Office of Inspector
General conducted this review with the specific objectives of: (1) identifying the BBG’s policies
and procedures for securing information on its information systems; and (2) determining whether


                                                2
the BBG is in compliance with GISRA with regard to establishing and ensuring the effectiveness
of controls over information resources.

        To fulfill our review objectives, we met with officials from organizations throughout
BBG including the IBB, Voice of America, and Worldnet Television and Film Service. We
spoke with officials from the Office of Cuba Broadcasting, but did not conduct any field work at
its headquarters in Miami. The Office of Cuba Broadcasting had become aware of GISRA
requirements only in June 2001 and requested time to develop and implement compliance
measures. Also, OIG did not conduct detailed review work with the BBG’s grantee
organizations, Radio Free Europe/Radio Liberty, and Radio Free Asia. They are private
nonprofit organizations that own and operate their own information technology systems.

        In addition to detailed discussions with appropriate BBG management and staff, we
developed and used a questionnaire based on the National Institute of Standards and
Technology’s Self-Assessment Guide for Information and Technology Systems. We collected
other pertinent supporting information security documentation as appropriate. We did not
review technical controls during this evaluation because BBG was still developing its security
program. We followed generally accepted government auditing standards and conducted such
tests and procedures as were considered necessary to the assignment. We obtained written
comments on a draft of this report from BBG and revised the report where appropriate. The
BBG’s comments are included in Appendix A. Staff from our Information Technology Issue
Area performed this evaluation from February 2001 through August 2001. Contributors to this
report were Frank Deffer, James Davies, Tim Fitzgerald, Robert Taylor, Anthony Carbone,
Sharon Hunter, Chris Watson, and Matthew Worner. Comments or questions about the report
can be directed to Mr. Deffer at defferf@state.gov or at (703) 284-2715 or to Mr. Davies at
daviesj@state.gov or at (703) 284-2673.




                                               3
AUDIT FINDINGS
BROADCASTING BOARD OF GOVERNORS SHOWS PROGRESS IN
ESTABLISHING AN INFORMATION SECURITY PROGRAM

        When OIG began its review in February 2001, the BBG did not have a documented
information security program or written policies and procedures covering information security.
OIG’s independent evaluation revealed that BBG’s senior management began actions in early
2001, to respond to GISRA requirements. The BBG is now developing its information systems
security program. OIG is supportive of the direction in which the agency is headed at this time
and has refrained from making numerous detailed recommendations. OIG encourages BBG
senior management and staff to develop the information security program that they believe is
best for their agency.

Information Security Controls Required

         Upon initiating this evaluation in February 2001, OIG found that BBG had not developed
written policies and procedures for establishing commonly used information security controls.
OIG found that BBG primarily uses commercial off-the-shelf software and identified 49 systems
that it was operating at the time of our evaluation. Using questions taken from the National
Institute of Standards and Technology’s Self-Assessment Guide, OIG held discussions with
several system owners and found that they were not using standard information security controls
while managing their systems and that system security level determinations had not been
documented. Furthermore, other key items that would support a stronger risk management
approach to information security as called for under GISRA were missing. They include:

   •   risk assessments;
   •   contingency plans;
   •   vulnerability testing;
   •   an information security training program; and
   •   procedures for detecting, reporting, and responding to security incidents.

BBG Takes Steps to Develop an Agency-wide
Systems Security Program and Plans

        Since February 2001, the agency has taken a number of steps to develop an information
security program to meet GISRA requirements. Specifically, the BBG designated IBB’s
associate director for management as the CIO. The CIO is responsible for establishing agency
information management policy and for administering the agency’s information security
program. In July 2001, the CIO issued a draft outline of a framework for the BBG’s Information
Security Program, including a description of:

   •   roles and responsibilities of key officials, such as the CIO, program officials, office
       directors, the Broadcast Technology Steering Committee, and the user;
   •   training requirements to ensure that employees understand their security obligations; and



                                                4
   •   BBG’s enterprise architecture, including an overview of the agency’s global computing
       environment.

In addition, five BBG program offices—Computing Services, Engineering and Technical
Services, Voice of America Broadcast Operations, the Office of Cuba Broadcasting, and the
Office of Internet Development—are developing security plans to protect BBG’s 18 mission-
critical and 31 nonmission-critical systems that were identified during our evaluation. The
development of these security plans, according to BBG officials, is geared toward meeting
GISRA requirements. Overall, these efforts suggest that BBG is making steady progress toward
establishing an effective information security program throughout the agency.

Recommendation 1: We recommend that the Broadcasting Board of Governors direct the Chief
Information Officer to complete the development of the agency’s information security program
by the end of October 2001 and that noted issues in this report be addressed not later than
October 31, 2001, as part of the Board’s remediation process and plan under the Government
Information Security Reform Act.

BBG Response

      In commenting on a draft of this report (see Appendix A), the BBG concurred with this
recommendation. Also, the BBG noted one factual error in the draft report.

OIG Comment

        The Inspector General accepts this response and considers this recommendation resolved.
The BBG should provide OIG with copies of the BBG’s remediation plan when it is submitted to
the Office of Management and Budget on October 31, 2001, for consideration in closing this
recommendation.

       OIG has corrected the factual error noted by the BBG in its response to the draft report.




                                                5
